A-1

Appendix A

Case 20-761, Document 100-1, 10/08/2020, 2947729, Page1 of 12

A-2

20-761-cv
Salu v. Miranda

UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
SUMMARY ORDER
RULINGS BY SUMMARY ORDER DO NOT HAVE PRECEDENTIAL EFFECT.
CITATION TO A SUMMARY ORDER FILED ON OR AFTER JANUARY 1, 2007, IS
PERMITTED AND IS GOVERNED BY FEDERAL RULE OF APPELLATE
PROCEDURE 32.1 AND THIS COURT’S LOCAL RULE 32.1.1. WHEN CITING A
SUMMARY ORDER IN A DOCUMENT FILED WITH THIS COURT, A PARTY MUST
CITE EITHER THE FEDERAL APPENDIX OR AN ELECTRONIC DATABASE (WITH
THE NOTATION “SUMMARY ORDER”). A PARTY CITING A SUMMARY ORDER
MUST SERVE A COPY OF IT ON ANY PARTY NOT REPRESENTED BY COUNSEL.
At a stated term of the United States Court of Appeals for the Second Circuit, held at the
Thurgood Marshall United States Courthouse, 40 Foley Square, in the City of New York, on the
8th day of October, two thousand twenty.
PRESENT:

DENNIS JACOBS,
PIERRE N. LEVAL,
JOSEPH F. BIANCO,
Circuit Judges.

ROTIMI SALU, GERARD M. LYNCH,
Plaintiffs-Appellants,
v.

No. 20-761

DENISE MIRANDA, NEW YORK STATE JUSTICE
CENTER, ELIZABETH M. DEVANE, DAVID MOLIK,
MARY B. ROCCO, LOUIS P. RENZI, WESTCHESTER
MEDICAL
CENTER
HEALTH
NETWORK,
WESTCHESTER
COUNTY
HEALTH
CARE
CORPORATION,
Defendants-Appellees,
DIAMOND
DAVIS,

HEALTHCARE

CORPORATION,

Defendants.

DENISE

Case 20-761, Document 100-1, 10/08/2020, 2947729, Page2 of 12

A-3

For Plaintiffs-Appellants:

MICHAEL D. DIEDERICH, JR., Diederich Law,
Stony Point, NY.

For Defendants-Appellees Denise Miranda,
New York State Justice Center, Elizabeth
M. Devane, David Molik, Mary B. Rocco,
and Louis P. Renzi:

MARK S. GRUBE, Assistant Solicitor (Barbara
D. Underwood, Solicitor General; Anisha S.
Dasgupta, Deputy Solicitor General; on the
brief), for Letitia James, Attorney General for
the State of New York, New York, NY.

For Defendants-Appellees Westchester
Medical Center Health Network and
Westchester County Health Care
Corporation:

BRIAN J. CLARK (Allison B. Gotfried, on the
brief),Venable LLP, New York, NY.

Appeal from a judgment of the United States District Court for the Southern District of
New York (Karas, J.).
UPON DUE CONSIDERATION, IT IS HEREBY ORDERED, ADJUDGED, AND
DECREED that the judgment of the District Court is AFFIRMED.
Plaintiffs-appellants Rotimi Salu and Gerard Lynch (collectively, “plaintiffs”) appeal from
the February 5, 2020 judgment of the district court, dismissing their claims alleging employment
discrimination based on race and due process and equal protection violations. Plaintiffs filed this
lawsuit against Westchester Medical Center Health Network and Westchester County Health Care
Corporation (collectively, “the WMC defendants”), as well as the New York State Justice Center
for the Protection of People with Special Needs (“the Justice Center”), Denise Miranda, Elizabeth
M. Devane, David Molik, Mary B. Rocco, and Louis P. Renzi (collectively, “the Justice Center
defendants” and together with the WMC defendants, “defendants”), seeking declaratory and
injunctive relief, monetary damages, and punitive damages under 42 U.S.C. §§ 1981, 1983, 1985,
and 1986. Plaintiffs further requested that the district court exercise supplemental jurisdiction over
certain state law claims and related proceedings pursuant to Article 78 of the New York Civil
Practice Law and Rules, N.Y. C.P.L.R. § 7801 et seq. Because plaintiffs have waived many of

Case 20-761, Document 100-1, 10/08/2020, 2947729, Page3 of 12

A-4

their originally pled claims on appeal (referenced in the margin below), we consider only: Salu’s
race discrimination claim against the WMC defendants, and Salu and Lynch’s due process and
equal protection claims against the Justice Center defendants. 1
We review de novo a district court’s dismissal of a complaint pursuant to Rule 12(b)(6) or
Rule 12(b)(1) of the Federal Rules of Civil Procedure. Smith v. Hogan, 794 F.3d 249, 253 (2d Cir.
2015). In doing so, we accept all factual allegations in the complaint as true and “draw all
reasonable inferences in favor of the plaintiff.” Kassner v. 2nd Ave. Delicatessen Inc., 496 F.3d
229, 237 (2d Cir. 2007). We review a district court’s decision to exercise supplemental jurisdiction
over state law claims for abuse of discretion. See Valencia ex rel. Franco v. Lee, 316 F.3d 299,
305 (2d Cir. 2003). We assume the parties’ familiarity with the facts and the procedural history,
which we reference only as necessary to explain our decision to affirm. 2
I.

Salu’s § 1981 Race Discrimination Claims Against the WMC Defendants
Salu is an African American who worked as a patient care technician in the adolescent

psychiatric department of the WMC. He alleges that he was jointly employed by WMC and

1

Plaintiffs raised a number of claims before the district court, many of which they waived on appeal. See
Littlejohn v. City of New York, 795 F.3d 297, 313 n.12 (2d Cir. 2015) (declining to consider an issue
addressed by the district court that was not argued on appeal). This includes Lynch’s claims against the
WMC defendants for race discrimination, as well as Salu’s due process, equal protection, and conspiracy
claims under 42 U.S.C. §§ 1983, 1985, and 1986 against the WMC defendants. See Maraschiello v. City
of Buffalo Police Dep’t, 709 F.3d 87, 92 (2d Cir. 2013) (determining that “three sentences of unsupported
argument regarding” the plaintiff’s claim is insufficient to trigger our examination). Moreover, plaintiffs
concede that they “are no longer pursuing a § 1985 conspiracy claim.” Plaintiffs Reply Br. at 24 n.17.
Thus, because “a § 1986 claim must be predicated on a valid § 1985 claim,” Brown v. City of Oneonta, 221
F.3d 329, 341 (2d Cir. 2000) (quoting Mian v. Donaldson, Lufkin & Jenrette Sec. Corp., 7 F.3d 1085, 1087
(2d Cir. 1993)), plaintiffs’ § 1986 claim is waived as well.

2

As a threshold matter, defendants object to the Court’s consideration of Addenda A and B that were
attached to plaintiffs’ brief on appeal. Addendum A is correspondence that Salu’s attorney had with the
Justice Center. Addendum B appears to be the attorney’s self-created list of Justice Center decisions
between 2016 and 2018. We need not address defendants’ argument because consideration of plaintiffs’
Addenda are immaterial to our conclusion that their amended complaint was properly dismissed by the
district court.

Case 20-761, Document 100-1, 10/08/2020, 2947729, Page4 of 12

A-5

Diamond Healthcare Corporation, which is a temporary staffing agency. As set forth in the
amended complaint, on or about May 2, 2016, Salu was supervising a patient (“Patient 1”) in the
adolescent psychiatric department when he encountered a second patient (“Patient 2”) with whom
he then became embroiled in a physical altercation, causing him to leave Patient 1 unsupervised.
The WMC defendants viewed Salu’s abandonment of Patient 1 to be a violation of their written
“one-on-one supervision” policy because he negligently failed to keep Patient 1 in full view at all
times. Am. Compl. ¶¶ 50–51. Salu concedes in the amended complaint that he left Patient 1
unsupervised when he was “enticed” into Patient 2’s hospital room, but claims his failure to return
to supervise Patient 1 was a result of being “viciously attacked” when he went into Patient 2’s
room. Am. Compl. ¶ 59. Patient 2 also accused Salu of assault.
New York State law requires staff members at healthcare facilities serving vulnerable
individuals to report any conduct they become aware of that could constitute abuse or neglect of a
patient to the Justice Center. N.Y. Soc. Serv. Law § 491. The Justice Center’s core duties include
maintaining a statewide central register to track and investigate such allegations of abuse and
neglect by individuals who are responsible for the care of vulnerable persons. N.Y. Exec. Law
§ 552(1); N.Y. Soc. Serv. Law § 492. The WMC defendants referred the allegation of neglect of
Patient 1 and abuse with respect to Patient 2 to the Justice Center for investigation pursuant to a
mandatory reporting requirement, and suspended Salu pending the investigation. The Justice
Center determined the report of neglect of Patient 1 to be “substantiated,” and Salu’s employment
at WMC was thereafter terminated. Am. Compl. ¶ 62.
Salu requested that the report be amended to reflect that he did not commit neglect. After
a hearing before an Administrative Law Judge (“ALJ”), the Justice Center issued a final
determination that the allegation of neglect of Patient 1 was substantiated against Salu based upon,

Case 20-761, Document 100-1, 10/08/2020, 2947729, Page5 of 12

A-6

among other findings: (1) “[a]t the time of the alleged neglect, [Salu] was assigned 1:1 constant
observation of [Patient 1] due to the risk of self-mutilation and verbalized suicidal ideation,” Joint
App’x at 113; and (2) “[t]he record established, and [Salu] admitted in his police interview and in
his testimony, that while assigned 1:1 constant observation of [Patient 1], [Salu] momentarily left
[Patient 1] unsupervised in the hallway to address [Patient 2],” Joint App’x at 116. 3
After the allegation of neglect of Patient 1 was substantiated, Salu alleges that Denise
Davis, Director of Nursing at the WMC, informed Diamond Healthcare Corporation that she did
not want Salu to continue to work at the WMC, and that Salu was subsequently terminated from
employment by Diamond. Salu asserts that the WMC defendants terminated his assignment at
WMC due to his race, and that the district court erred in concluding that he failed to establish a
plausible claim for race discrimination against the WMC defendants.
As an initial matter, Salu improperly asserts a claim against the WMC defendants under 42
U.S.C. § 1981. “[T]he express cause of action for damages created by § 1983 constitutes the
exclusive federal remedy for violation of the rights guaranteed in § 1981 by state [actors].” Jett v.
Dallas Indep. Sch. Dist., 491 U.S. 701, 733 (1989). Salu concedes that the WMC defendants are
state actors, yet he has inexplicably abandoned his § 1983 claim by failing to raise it in his appellate
brief. In any event, even assuming arguendo that we construe Salu’s § 1981 claim as a claim
under § 1983, see Duplan v. City of New York, 888 F.3d 612, 621 (2d Cir. 2018), the district court
correctly concluded that the allegations in the amended complaint fail to withstand a motion to
dismiss.
Claims for race discrimination under § 1983 are analyzed under the burden-shifting
framework outlined in McDonnell Douglas Corporation v. Green, 411 U.S. 792 (1973), which –

3

The allegation regarding Patient 2’s assault was determined to be unsubstantiated.

Case 20-761, Document 100-1, 10/08/2020, 2947729, Page6 of 12

A-7

at step one – requires a plaintiff prove the following to establish a prima facie case: (1) he is a
member of a protected class; (2) he was qualified for his position; (3) he suffered an adverse
employment action; and (4) his treatment occurred under circumstances giving rise to an inference
of discrimination. See Littlejohn v. City of New York, 795 F.3d 297, 311 (2d Cir. 2015) (explaining
that the McDonnell Douglas framework applies to Title VII, § 1981, and § 1983 claims). At the
first stage under McDonnell Douglas on a motion to dismiss, prior to the employer’s giving of its
reason for its action, the plaintiff’s satisfaction of the prima facie requirements is facilitated by a
temporary presumption in the plaintiff’s favor, so that the plaintiff “need only give plausible
support to a minimal inference of discriminatory motivation.” See Vega v. Hempstead Union Free
Sch. Dist., 801 F.3d 72, 84 (2d Cir. 2015) (quoting Littlejohn, 795 F.3d at 311). Nonetheless, in
attempting to satisfy this pleading standard, “[i]t is well settled in this Circuit that a complaint
consisting of nothing more than naked assertions, and setting forth no facts upon which a court
could find a violation of the Civil Rights Acts, fails to state a claim under Rule 12(b)(6).” Martin
v. N.Y.S. Dep’t of Mental Hygiene, 588 F.2d 371, 372 (2d Cir. 1978).
Here, the WMC defendants concede, for purposes of this appeal, that Salu has satisfied the
first three prongs of a prima facie case of race discrimination. Thus, the issue on appeal is whether
the amended complaint contains non-conclusory allegations sufficient to support a plausible
inference of discriminatory motivation by the WMC defendants in Salu’s termination. We agree
with the district court that the amended complaint fails to satisfy the plausibility requirement.
More specifically, Salu’s discrimination claim rests on his belief that Davis, as the Director
of Nursing, harbored racial animus and was responsible for Diamond’s decision to terminate him
after he “was determined to be guilty of statutory neglect by the Justice Center.” Am. Compl.
¶ 99. That critical allegation regarding Davis’s purported decision-making role, however, which

Case 20-761, Document 100-1, 10/08/2020, 2947729, Page7 of 12

A-8

is necessary to render his race discrimination claim plausible against her and the WMC defendants,
has no factual basis to support it, but rather is simply stated in a conclusory fashion based upon
“information and belief.” See Am. Compl. ¶¶ 69–70 (“Upon information and belief, the racially
biased decision-maker was the WMC Director of Nursing, Denise Davis, RN. Upon information
and belief, Director Davis, as a WMC policy-maker and decision-maker, informed Diamond that
she did not want Mr. Salu to continue working at WMC. Diamond had no choice but to carry out
Director Davis’ command.” (emphases added)).

As the district court correctly held, these

conclusory assertions repeatedly made “upon information and belief” are insufficient to provide a
basis to conclude that the race discrimination claim is plausible.

See Citizens United v.

Schneiderman, 882 F.3d 374, 384 (2d Cir. 2018) (“A litigant cannot merely plop ‘upon information
and belief’ in front of a conclusory allegation and thereby render it non-conclusory.”).
Moreover, the implausible nature of Salu’s central claim – namely, that the allegedly biased
Davis was responsible for his termination – is demonstrated by Salu’s own concession in the
amended complaint that he was not terminated until the Justice Center substantiated the report of
neglect against him. See Am. Compl. ¶ 62 (“Mr. Salu was thereafter eventually terminated by his
employer after the Justice Center ‘substantiated’ . . . that he took his eyes off the patient he was
supervising, viewing this as amounting to a neglect under N.Y.S. statute.”); see also Am. Compl.
¶ 107 (“As a result, Mr. Salu was adjudicated by the Justice Center as being guilty of ‘category 3
neglect,’ which adjudication justified his job termination . . . .”). His disagreement with the Justice
Center’s conclusion does not substantiate, even to a minimal degree, his claims of discrimination
against the WMC defendants.
In sum, the allegations fail to create a plausible inference that Salu was terminated based
upon intentional race discrimination by Davis or anyone else at WMC. Accordingly, we conclude

Case 20-761, Document 100-1, 10/08/2020, 2947729, Page8 of 12

A-9

that the district court properly dismissed Salu’s race discrimination claims against the WMC
defendants.
II.

Plaintiffs’ Claims Against the Justice Center Defendants
Both plaintiffs Salu and Lynch brought claims against the Justice Center defendants based

upon their allegation that the Justice Center conspires with private employers to violate the rights
of non-white healthcare workers. Like Salu, Lynch was terminated from his job at WMC. In
particular, Lynch was found by the Justice Center to have committed sexual misconduct towards
a female patient at WMC. Both plaintiffs assert that the Justice Center’s determination that they
had committed acts constituting neglect and/or abuse of patients entrusted to their care was based
upon racial bias and unconstitutional procedures, and led to the wrongful termination of their
employment at WMC. As set forth below, there are multiple grounds to affirm the district court’s
dismissal of all claims against the Justice Center defendants.
A. Eleventh Amendment Immunity
The district court concluded that the Eleventh Amendment barred plaintiffs from
proceeding in federal court on their claims for damages against the Justice Center and its officers
in their official capacities. See V.A. Office for Prot. & Advocacy v. Stewart, 563 U.S. 247, 254
(2011) (finding that the Eleventh Amendment bars damages actions asserted against a State
“absent waiver or valid abrogation” of the State’s sovereign immunity). It is well settled that suits
against state agencies and state officers acting in their official capacities are functionally equivalent
to suits against the State. Pennhurst State Sch. & Hosp. v. Halderman, 465 U.S. 89, 100–02 (1984).
Here, plaintiffs seek monetary relief from a state agency – the Justice Center, and its
officers in their official capacities. But New York has not waived sovereign immunity in federal
court for damages claims. Trotman v. Palisades Interstate Park Comm’n, 557 F.2d 35, 39–40 (2d

Case 20-761, Document 100-1, 10/08/2020, 2947729, Page9 of 12

A-10

Cir. 1977). In addition, Congress did not abrogate state sovereign immunity when enacting the
statutes that form the basis for the federal claims in plaintiffs’ amended complaint. See Quern v.
Jordan, 440 U.S. 332, 338–45 (1979) (§ 1983); Dube v. State Univ. of N.Y., 900 F.2d 587, 594 (2d
Cir. 1990) (§ 1983); Keitt v. New York City, 882 F. Supp. 2d 412, 424 (S.D.N.Y. 2011) (§§ 1983,
1985, and 1986).
Accordingly, we conclude that the district court correctly determined that the Eleventh
Amendment bars plaintiffs from proceeding in federal court against the Justice Center and its
officers in their official capacities for damages. 4
B. Judicial Immunity
Judges generally receive absolute immunity from “suits for money damages for their
judicial actions,” Bliven v. Hunt, 579 F.3d 204, 209 (2d Cir. 2009) and from suits for injunctive
relief under § 1983 with certain exceptions not relevant here, Montero v. Travis, 171 F.3d 757,
761 (2d Cir. 1999).
Judicial immunity applies if (1) “the relevant action is judicial in nature” and (2) the
defendant “had jurisdiction over the subject matter before him.” Huminski v. Corsones, 396 F.3d

4

Plaintiffs also seek to remedy the “systemic and ongoing” violations of the Justice Center, Plaintiffs Br.
at 57. Specifically, plaintiffs argue purported future harms to third parties, which would theoretically
overcome the Eleventh Amendment hurdle, given that state officers may properly be sued in their official
capacities for prospective relief under the doctrine of Ex parte Young, 209 U.S. 123 (1908). However, this
argument raises another insurmountable hurdle for plaintiffs in this particular case – namely, the prudential
standing requirements, which prohibit “plaintiffs from asserting the rights of third parties.” Montesa v.
Schwartz, 836 F.3d 176, 195 (2d Cir. 2016). Here, plaintiffs are unable to establish that the relevant third
parties, other African-American healthcare workers, are hindered or cannot assert their own rights. See
Keepers, Inc. v. City of Milford, 807 F.3d 24, 39 (2d Cir. 2015) (plaintiff bears the burden of establishing
prudential standing). Indeed, when the Justice Center makes a final determination that is unfavorable to a
healthcare worker, that healthcare worker can pursue judicial review through an Article 78 proceeding.
Thus, plaintiffs have no standing to seek injunctive relief to purportedly prevent future harm to third parties.
Plaintiffs also argue that they have standing to seek injunctive relief because there is a “real possibility”
that they may once again be accused of neglect or abuse and subjected to the Justice Center’s procedures.
Plaintiffs Reply Br. at 19. But plaintiffs allege no probable threat that they will again face complaints of
abuse or neglect and be subject to a Justice Center adjudication. See City of Los Angeles v. Lyons, 461 U.S.
95, 105 (1983).

Case 20-761, Document 100-1, 10/08/2020, 2947729, Page10 of 12

A-11

53, 75 (2d Cir. 2005) (quotation marks omitted). Only allegations that a defendant acted “in the
clear absence of all jurisdiction” will overcome the bar of judicial immunity. Stump v. Sparkman,
435 U.S. 349, 356–57 (1978) (quotation marks omitted).
Here, judicial immunity bars plaintiffs’ claims against the ALJ defendants, Elizabeth
Devane, David Molik, Mary Rocco, and Louis Renzi. Plaintiffs’ only interactions with the ALJ
defendants were in their judicial capacities, as set forth by New York law. For instance, New York
law authorizes ALJs to “determine whether the findings of [a Justice Center] report should be
amended on the grounds that [the findings] are inaccurate or inconsistent” with the law. N.Y. Soc.
Serv. Law § 494(1)(a); 14 N.Y.C.R.R. § 700.6(a). ALJs Renzi and Rocco oversaw plaintiffs’
administrative hearings, and thereafter issued reports and recommendations as to whether the
findings against plaintiffs should be amended. ALJs Devane and Molik reviewed those reports
and recommendations and issued final determinations. We conclude that, for purposes of this
appeal, such actions fall squarely within the core duties “normally performed by a judge.” Bliven,
579 F.3d at 209–10 (quotation marks omitted); see also Butz v. Economou, 438 U.S. 478, 513
(1978) (“[T]he role of the modern federal hearing examiner or administrative law judge . . . is
‘functionally comparable’ to that of a judge.”).
Therefore, the ALJ defendants are entitled to judicial immunity as their actions were
judicial in nature, and they had jurisdiction over the subject matter before them pursuant to New
York law. See Stump, 435 U.S. at 356–57 (quotation marks omitted). Plaintiffs’ allegations of
bias or misconduct are not sufficient to strip these defendants of their immunity. See Tucker v.
Outwater, 118 F.3d 930, 932 (2d Cir. 1997) (“The cloak of [judicial] immunity is not pierced by
allegations of bad faith or malice.”). 5

5

As to Denise Miranda, the Justice Center’s Executive Director, the district court held that she had no
personal involvement in plaintiffs’ cases, and thus did not reach whether she was entitled to qualified

Case 20-761, Document 100-1, 10/08/2020, 2947729, Page11 of 12

III.

A-12

Plaintiffs’ State Law Claims
Finally, we conclude that the district court did not abuse its discretion when it exercised

supplemental jurisdiction to dismiss certain state law claims, and declined to exercise its
supplemental jurisdiction over the Article 78 claim.
Section 1367(a) of Title 28 grants federal courts supplemental jurisdiction over state law
claims that are part of the same case or controversy as the asserted federal claims. See 28 U.S.C.
§ 1367(a). We review a district court’s decision to exercise supplemental jurisdiction over statelaw claims for abuse of discretion, see Kolari v. New York-Presbyterian Hosp., 455 F.3d 118, 122
(2d Cir. 2006), “considering whether judicial economy, convenience, fairness and comity require
a different result,” Finz v. Schlesinger, 957 F.2d 78, 84 (2d Cir. 1992) (citing Carnegie-Mellon
Univ. v. Cohill, 484 U.S. 343, 350 n.7 (1988)).
Plaintiffs’ state law causes of action, such as the New York State Human Rights Law
(“NYSHRL”) claim, are analytically identical to some of Salu’s federal claims (namely his § 1981
claim – which we construe as a § 1983 claim – and his equal protection claim), and feature the
same allegations of discriminatory conduct as those underlying his federal discrimination,
constitutional, and due process claims. See Spiegel v. Schulmann, 604 F.3d 72, 80 (2d Cir. 2010)
(holding that discrimination claims under the NYSHRL are subject to the same framework as the
related federal claims). Thus, the district court did not err by exercising supplemental jurisdiction
and dismissing these claims. 6

immunity. We agree with the district court’s dismissal of plaintiffs’ claims against Miranda based upon a
failure to allege any non-conclusory allegations of Miranda’s personal involvement in the final
determination of plaintiffs’ cases at the Justice Center, and we therefore also decline to address the qualified
immunity issue. See Sealey v. Giltner, 116 F.3d 47, 51 (2d Cir. 1997) (requiring allegation of direct
personal involvement to state a § 1983 claim against a supervisory official).
6

To the extent that plaintiffs raised their claims arising under the New York State Constitution on appeal,
we conclude that the district court properly exercised supplemental jurisdiction over those claims as well,

Case 20-761, Document 100-1, 10/08/2020, 2947729, Page12 of 12

A-13

Finally, as to the Article 78 claim, the district court did not abuse its discretion by declining
to exercise jurisdiction. See N.Y. C.P.L.R. §§ 7801, 7804(b); see also Libertarian Party of Erie
Cnty. v. Cuomo, 970 F.3d 106, 121 (2d Cir. 2020).
In sum, the district court did not abuse its discretion by dismissing some state law claims
and declining to exercise supplemental jurisdiction over the Article 78 claim.
***
We have considered all of plaintiffs’ remaining arguments and find them to be without
merit. Accordingly, we AFFIRM the judgment of the district court.
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk of Court

and plaintiffs have waived any arguments regarding the merits of those claims that are different from their
arguments based on § 1983. See Allen v. Antal, 665 F. App’x 9, 13 (2d Cir. 2016) (“The New York State
Constitution provides a private right of action where remedies are otherwise unavailable at common law or
under § 1983.”).

A-14

Appendix B

A-15

STATE OF NEW YORK
JUSTICE CENTER FOR THE PROTECTION OF PEOPLE
WITH SPECIAL NEEDS
FINAL
DETERMINATION
AND ORDER
AFTER HEARING

In the Matter of the Appeal of
Gerard Lynch
Pursuant to § 494 of the Social Services Law

Adjud. Case#:

521052865,521050899
The attached Recommended Decision After Hearing (Recommended Decision) is
incorporated in its entirety including but not limited to the Findings of Fact, Conclusions of Law
and Decision section.
ORDERED:

The attached and incorporated Recommended Decision is hereby adopted

in its entirety.
ORDERED:

The Vulnerable Persons' Central Register shall take action in conformity

with the attached Recommended Decision, specifically the Decision section.
This decision is ordered by David Molik, Director of the Administrative Hearings Unit,
who has been designated by the Executive Director to make such decisions.

Dated:

June 29, 2018
Schenectady, New York

David Motik
Administrative Hearings Unit
CC.

Vulnerable Persons' Central Register
Administrative Appeals Unit
Gerard Lynch, Subject
Gwynne A. Wilcox, Esq.

A-16

STATE OF NEW YORK
JUSTICE CENTER FOR THE PROTECTION OF PEOPLE
WITH SPECIAL NEEDS

In the Matter of the Appeal of
Gerard Lynch
Pursuant to§ 494 of the Social Services Law

RECOMMENDED
DECISION
AFTER
HEARING
Adjud. Case#:

521052865,521050899
Before:

Louis P. Renzi
Administrative Law Judge

Held at:

New York State Justice Center for the Protection
of People with Special Needs
Eleanor Roosevelt State Office Bldg.
4 Burnett Blvd., 2nd Fl.
Poughkeepsie, New York 12601
On:
January 17-18, 2018

Parties:

New York State Justice Center for the Protection
of People with Special Needs
161 Delaware Avenue
Delmar, New York 12054-1310
By:
Laurie Cummings, Esq.

Gerard Lynch, Subject
127 Fulton Avenue, Apt. H-3
Poughkeepsie, New York 12603
By:
Gwynne A. Wilcox, Esq.
Levy Ratner, P.C.
80 Eighth Avenue, 8th Fl.
New York, New York 10011-7175

A-17
2

Gerard Lynch

JURISDICTION
The New York State Vulnerable Persons' Central Register (the VPCR) maintains two
reports substantiating Gerard Lynch (the Subject) for sexual abuse and neglect. The Subject
requested that the VPCR amend the reports to reflect that the Subject is not a subject of the
substantiated reports. The VPCR did not do so, and a hearing was then scheduled in accordance
with the requirements of Social Services Law (SSL)§ 494 and Part 700 of 14 NYCRR.
FINDINGS OF FACT
An opportunity to be heard having been afforded the parties and evidence having been
considered, it is hereby found:
1.

The VPCR contains two "substantiated" reports (VPCR Master Case# 551036959,

dated April 18, 2016, and VPCR Master Case# 551037826, dated April 18, 2016, of sexual abuse
and neglect by the Subject of two separate Service Recipients.
2.

The Justice Center substantiated the reports against the Subject. The Justice Center

concluded that:
VPCR Report# 551036959 ("Case 1")
Allegation 1 - Sexual Abuse
It was alleged that on undetermined dates on or about and between February 3,
2014, and February 26, 2014, at the Turning Point Chemical Dependency Inpatient
Unit, located at 241 North Road, Poughkeepsie, New York, while a custodian, you
committed sexual abuse when you engaged in sexual contact and/or conduct with
a service recipient in violation of Penal Law Article 130.
This allegation has been SUBSTANTIATED as Category 1 sexual abuse pursuant
to Social Services Law§ 493(4)(a).
Allegation 2 - Neglect
It was alleged that on undetermined dates on or about and between February 3,
2014, and February 26, 2014, at the Turning Point Chemical Dependency Inpatient
Unit, located at 241 North Road, Poughkeepsie, New York, while a custodian, you

A-18
Gerard Lynch

3

committed neglect when you breached a duty by failing to maintain a professional
relationship and/or boundaries, during time you touched a service recipient,
including rubbing her back, and/or shoulders, and/or buttocks, and/or directed
sexually harassing comments towards her.
This allegation has been SUB ST ANTIATED as Category 2 neglect pursuant to
Social Services Law § 493( 4)(b ).
VPCR Report# 551037826 ("Case 2")
Allegation 1 - Sexual Abuse
It was alleged that on undetermined dates on or about and between January 28,
2014, and February 25, 2014, at the Turning Point Chemical Dependency Inpatient
Unit, located at 241 North Road, Poughkeepsie, New York, while a custodian, you
committed sexual abuse when you engaged in sexual contact and/or conduct with
a service recipient in violation of Penal Law Article 130.
This allegation has been SUBSTANTIATED as Category 1 sexual abuse pursuant
to Social Services Law§ 493(4)(a).
Allegation 2 - Neglect
It was alleged that on undetermined dates on or about and between January 28,
2014, and February 25, 2014, at the Turning Point Chemical Dependency Inpatient
Unit, located at 241 North Road, Poughkeepsie, New York, while a custodian, you
committed neglect when you breached a duty by failing to maintain a professional
relationship and/or boundaries, during time you touched a service recipient,
including placing your arm around her shoulders and/or back, and/or touching her
buttocks.
This allegation has been SUB ST ANTIATED as Category 2 neglect pursuant to
Social Services Law§ 493(4)(b).
3.

An Administrative Review was conducted and the substantiated reports were

retained.
4.

At all times relevant to the reports of alleged abuse and neglect herein ("the

incidents"), January and February, 2014, Turning Point Chemical Dependency Inpatient Unit ("the
facility"), located at 241 N01th Road, Poughkeepsie, New York, was an alcohol and drug
detoxification unit with an associated rehabilitation unit operated by and within St. Francis

A-19
4

Gerard Lynch

Hospital 1, and was licensed by the NYS Office of Alcoholism and Substance Abuse Services
(OASAS), a facility or provider agency that is subject to the jurisdiction of the Justice Center.
5.

At the time of the incidents, the Subject had been employed by the facility since

June, 2011, and since 2012 as a Chemical Dependency Counselor (CDC). (Testimony of the
Subject)
6.

At the time of the incidents, the Service Recipient involved in Case #1 ("Service

Recipient RP") was a resident of the facility between February 3 and February 26, 2014. Service
Recipient RP was a female, 35 years of age, and with diagnoses of opiate and benzodiazepine
dependence, anxiety disorder, Bechet Syndrome (Axis III), inability to maintain sobriety (Axis IV)
and social concerns. According to her medical records, her mental status in February, 2014 was
very anxious and dramatic, but stable. (Justice Center Exhibits 10, 27 at pages 167,169)
7.

At the time of the incidents, the Service Recipient involved in Case #2 ("Service

Recipient TP") was a resident of the facility between January 27 and February 26, 2014. Service
Recipient TP was a female, 38 years of age, and with diagnoses of opiate, cannabis and nicotine
dependence.

According to her medical records, her mental status in February, 2014 was

historically anxious, but alert. (Justice Center Exhibit 10, 24 at page 094).
8.

The Subject worked on the detoxification/rehabilitation units during the period

January 28, 2014 through and including February 26, 2014. He was not on duty on February 24,
2014. (Subject Exhibit B)
9.

Service Recipient RP lodged a written complaint in Case #1 against the Subject in

February, 2014, alleging that the Subject inappropriately played with her hair, touched her buttocks
on several occasions, entered her room alone, and made inappropriate comments of a sexual nature

1

Prior to the commencement of the investigation herein, St. Francis was absorbed by the Mid-Hudson Valley
Division of Westchester Medical Center.

A-20
Gerard Lynch

5

towards her on other occasions during her residency that month. Those comments involved the
Service Recipient taking a shower and performing sexual acts upon herself, including shaving her
genital region "bald". Two days prior to her discharge, she was instructed by an administrator,
Staff GW, to write a statement describing her experience with the Subject. Service Recipient RP
did submit the written statement prior to being discharged. (Justice Center Exhibit 10, 12, 28)
10.

Service Recipient RP was readmitted to the facility on June 28, 2014. She signed

herself out against medical advice on July 11, 2014. She made no allegations of sexual misconduct
against the Subject, but claimed his presence frightened her. She claimed to have written another
letter of complaint against the Subject, but no such letter was presented at the hearing and Justice
Center Investigator Joseph J. Mazzone III (Investigator Mazzone) testified that it had not been
found. Upon being readmitted a third time on July 6, 2015, Service Recipient RP again saw that
the Subject was still on duty and became upset. She wrote a letter of complaint dated July 8, 2015,
reiterating her complaints from February, 2014 and her negative reaction to his presence in July,
2014, and further indicating that on the first evening of this third admission, the Subject came to
her room at approximately 11: 15 p.m. while she was having her vitals taken. Service Recipient
RP described becoming very upset at the Subject's arrival and "screaming" for staff to call her
counselor to the scene. (Justice Center Exhibit 13) The counselor did arrive and made a record of
her findings, including that Service Recipient RP was shaking, and that the Subject was
subsequently very interested in whatever the Service Recipient had said to the counselor after he
left. (Justice Center Exhibit 16) No new allegations of misconduct were made as a result of this
incident.
11.

The evidence proved that the first letter, undated but presumed to have been written

in February 2014, was located by Staff MAG, Patient Representative, in the administrator's office

A-21
Gerard Lynch

6

among other papers (Justice Center Exhibits 12, 17). No disciplinary action of note was taken by
management at the time it was submitted. Upon being readmitted to the facility in July, 2015, and
recognizing that the Subject was still on staff, Service Recipient RP renewed her complaint, again
in writing, at which point the matter was reported to the Justice Center. (Justice Center Exhibit
13)
12.

On July 14, 2015, Service Recipient RP described her abuser to the police as an

African-American man 6'6" tall and weighing 220 lbs. The police officer or sergeant later located
the Subject and determined that the Subject "fit" that description, despite the six-inch discrepancy
in height, as the Subject is actually 6'0" tall. (Subject Exhibit F) During her interview with the
Justice Center investigator, which took place on July 23, 2015, Service Recipient RP identified her
abuser as an African-American male, 6'6" to 6'8" tall, weighing approximately 300 lbs. The
Subject is an African-American male. He is 6'0" tall and weighs approximately 230 lbs. (Hearing
testimony of Investigator Mazzone; Subject Exhibit F; Subject's hearing appearance and
testimony; Justice Center Exhibits 15, 17, 28) The record contains no evidence that a further
identification via photo array or personal appearance was made by Service Recipient RP, except
that Service Recipient RP further recounts an event that took place on February 22 or 23, 2014 at
approximately 11 :45 PM, while she was in the office of Staff RG (who had clocked out at 11 :29
or 11 :34 PM, depending upon which date it was) (Subject Exhibit A) with Service Recipient TP
(Case #2) and another service recipient. The Subject entered the unit, walked to Service Recipient
RP's room, and entered the empty room, closing the door behind him. In a moment, he emerged.
Both Service Recipient RP and Service Recipient TP saw the same individual and recognized him
as the Subject, despite later describing him differently. The statements of both Service Recipients
are credited with respect to their identification of the Subject. The record is conflicted whether

A-22
7

Gerard Lynch

· Staff RG had remained and witnessed the event, or whether it took place in her absence. The
police report states February 24; Subject Exhibits A and B (Staff RG and Subject time detail)
indicates neither worked on February 24 but were on duty the 22nd and 23rd.
13.

Service Recipient RP expressed significant concern over this conduct by the

Subject. (Justice Center Exhibits 12, 13)
14.

Service Recipient TP's allegations against the Subject are contained in a written

statement dated February 24, 2014 and her interview with Investigator Mazzone. (Justice Center
Exhibits 14 and 28, audio record of interview with Service Recipient TP)

During her interview,

she alleged that during the week after her admission on January 28, 2014, he had placed his hand
on her back, started rubbing her back and his hand ... "slid down my back way past my waistband."
At that point a nurse and/or other female service recipients appeared and the Subject then
disengaged from Service Recipient TP and walked quickly away.

Service Recipient TP further

alleges that on or about the same date, he again approached her, put his arm around her and said
"If you have any trouble sleeping, come see me, baby."
15.

Service Recipient TP identified the Subject by specific reference to his gender, race,

6'0" in height, and his clothing, specifically citing certain gold jewelry, grey slacks, grey v-neck
sweater, maroon button down collared shirt and black wing-tip shoes. This identification was
made in connection with the incident described in paragraph number 12 above. (Justice Center
Exhibit 28)
ISSUES
•

Whether the Subject has been shown by a preponderance of the evidence to have

committed the act or acts giving rise to the substantiated report.
•

Whether the substantiated allegations constitute sexual abuse and/or neglect.

A-23
Gerard Lynch

•

8

Pursuant to Social Services Law § 493(4), the category of sexual abuse and/or

neglect that such act or acts constitute.
APPLICABLE LAW
The Justice Center is responsible for investigating allegations of abuse and neglect in a
facility or provider agency. (SSL§ 492(3)(c) and 493(1) and (3)) Pursuant to SSL§ 493(3), the
Justice Center determined that the initial report of sexual abuse and neglect presently under review
was substantiated. A "substantiated report" means a report" ... wherein a determination has been
made as a result of an investigation that there is a preponderance of the evidence that the alleged
act or acts of abuse or neglect occurred ... " (Title 14 NYCRR 700.3(f))
The sexual abuse and neglect of a person in a facility or provider agency are defined by
SSL§ 488(1):
(b) "Sexual abuse," which shall mean any conduct by a custodian that subjects a
person receiving services to any offense defined in article one hundred thirty or
section 255.25, 255.26 or 255.27 of the penal law; or any conduct or
communication by such custodian that allows, permits, uses or encourages a service
recipient to engage in any act described in articles two hundred thirty or two
hundred sixty-three of the penal law. For purposes of this paragraph only, a person
with a developmental disability who is or was receiving services and is also an
employee or volunteer of a service provider shall not be considered a custodian if
he or she has sexual contact with another service recipient who is a consenting adult
who has consented to such contact.
(h) "Neglect," which shall mean any action, inaction or lack of attention that
breaches a custodian's duty and that results in or is likely to result in physical injury
or serious or protracted impairment of the physical, mental or emotional condition
of a service recipient. Neglect shall include, but is not limited to: (i) failure to
provide proper supervision, including a lack of proper supervision that results in
conduct between persons receiving services that would constitute abuse as
described in paragraphs (a) through (g) of this subdivision if committed by a
custodian; (ii) failure to provide adequate food, clothing, shelter, medical, dental,
optometric or surgical care, consistent with the rules or regulations promulgated by
the state agency operating, certifying or supervising the facility or provider agency,
provided that the facility or provider agency has reasonable access to the provision
of such services and that necessary consents to any such medical, dental, optometric
or surgical treatment have been sought and obtained from the appropriate

A-24
Gerard Lynch

9

individuals; or (iii) failure to provide access to educational instruction, by a
custodian with a duty to ensure that an individual receives access to such instruction
in accordance with the provisions of part one of article sixty-five of the education
law and/or the individual's individualized education program.
In relevant part:
§ 130.05 Sex offenses; lack of consent. 3. A person is deemed incapable of
consent when he or she is:
* (i) a resident or inpatient of a residential facility operated, licensed or certified
by (i) the office of mental health; (ii) the office for people with developmental
disabilities; or (iii) the office of alcoholism and substance abuse services, and the
actor is an employee of the facility not married to such resident or inpatient. For
purposes of this paragraph, "employee" means either: an employee of the agency
operating the residential facility, who knows or reasonably should know that such
person is a resident or inpatient of such facility and who provides direct care
services, case management services, medical or other clinical services, habilitative
services or direct supervision of the residents in the facility in which the resident
resides;
* NB Effective until May 12, 2018
§ 130.52 Forcible touching. A person is guilty of forcible touching when such
person intentionally, and for no legitimate purpose: 1. forcibly touches the sexual
or other intimate parts of another person for the purpose of degrading or abusing
such person, or for the purpose of gratifying the actor's sexual desire; or 2. subjects
another person to sexual contact for the purpose of gratifying the actor's sexual
desire and with intent to degrade or abuse such other person while such other
person is a passenger on a bus, train, or subway car operated by any transit
agency, authority or company, public or private, whose operation is authorized
by New York state or any of its political subdivisions. For the purposes of this
section, forcible touching includes squeezing, grabbing or pinching.
§ 130.55 Sexual abuse in the third degree. A person is guilty of sexual abuse in the
third degree when he or she subjects another person to sexual contact without the
latter's consent;
Substantiated reports of abuse and/or neglect shall be categorized into categories pursuant
to SSL§ 493(4), including Category 1 and Category 2, which, as relevant here, are defined as
follows:
(a) Category one conduct is serious physical abuse, sexual abuse or other serious
conduct by custodians, which includes and shall be limited to:

A-25
Gerard Lynch

10

(v)
engaging in or encouraging others to engage in any conduct in
violation of article one hundred thirty of the penal law with a service
recipient;
(b) Category two is substantiated conduct by custodians that is not otherwise
described in category one, but conduct in which the custodian seriously endangers
the health, safety or welfare of a service recipient by committing an act of abuse or
neglect. Category two conduct under this paragraph shall be elevated to category
one conduct when such conduct occurs within three years of a previous finding that
such custodian engaged in category two conduct. Reports that result in a category
two finding not elevated to a category one finding shall be sealed after five years.
The Justice Center has the burden of proving at a hearing by a preponderance of the
evidence that the Subject committed the act or acts of sexual abuse and neglect alleged in the
substantiated report that is the subject of the proceeding and that such act or acts constitute the
categories of sexual abuse and neglect as set forth in the substantiated report.

(Title 14

NYCRR § 700.lO(d))
If the Justice Center proves the alleged sexual abuse and neglect, the report will not be
amended or sealed. Pursuant to SSL § 493(4) and Title 14 NYCRR 700.lO(d), it must then be
determined whether the act or acts of sexual abuse and neglect cited in the substantiated report
constitute the categories of sexual abuse and neglect as set forth in the substantiated report.
If the Justice Center does not prove the sexual abuse and/or neglect by a preponderance of
the evidence, the substantiated report must be amended and sealed.
DISCUSSION
VPCR Report# 551036959 ("Case 1")
Allegation 1 - Sexual Abuse
The Justice Center has established by a preponderance of the evidence that the Subject
committed sexual abuse against Service Recipient RP as set forth in "Allegation l" of the
substantiated report.
In order to sustain the allegation of sexual abuse in violation of SSL§ 488(l)(b ), the Justice

A-26
Gerard Lynch

11

Center must prove that the Subject was a custodian as that term is defined by SSL § 488(2) and
that by his conduct he subjected the Service Recipient to an offense described in Article 130 of the
Penal Law. At the hearing, the Justice Center specified Penal Law (PL) § 130.05(3) (lack of
consent), § 130.52(1) (forcible touching) and PL§ 130.55 (sexual abuse in the third degree) as
being the sections of Article 130 relied upon here. The relevant elements of section 130.52(1) are
the intentional touching of another person's sexual or other intimate body parts, for no legitimate
purpose, and for the purpose of degrading or abusing the victim, or to gratify the actor's sexual
desire. "Forcible touching" includes squeezing, grabbing, and pinching. Section 130.55 requires
proof that the actor subjected another person to sexual contact without the latter's consent.
It is well-settled that the buttocks are an intimate and sexual part of the body within. the
meaning of PL§ 130; Matter ofJessica C. (Jose Y.), 51 Misc. 3d 1211 (A), 36 N Y.S.3d 407 (Family
Court, Kings County, 2016); People v. Rivera, 138 Misc. 2d 570, 525 NY.S.2d 118 (1988); People
v. Victor P., 120 Misc. 2d 770, 466 N Y.S.2d 572, (1983); and that sexual gratification may be
inferred from the acts themselves; Matter o(Shaquan A., 137 A.D.3d 1119, 27 N Y.S.3d 692 (2nd
Dep't 2016); Matter o(Shannon K., 222 AD2d 905, 635 NY.S.2d 751 (3rd Dep 't 1995).

In support of its substantiated findings, the Justice Center presented twenty-seven exhibits:
documents and audio recordings of statements by the Subject and other witnesses, obtained during
the investigation. The Subject's objections to Exhibits 1, 3, 5, 22, 26 and 28 were overruled.
(Justice Center Exhibits 1-22 and 24-282) The investigation underlying the substantiated report
was conducted by Investigator Mazzone, who was the only witness who testified at the hearing on
behalf of the Justice Center.
The Subject testified in his own behalf and called three witnesses on his behalf: Kathleen

2

Justice Center Exhibit 23 was withdrawn at the hearing.

A-27
Gerard Lynch

12

Gibbons, R.N., Nancy Kelly, R.N. and Sandra Chislom, Patient Care Technician (PCT). The
Subject offered Exhibits A-G, which were received without objection.
It is uncontested that Service Recipients RP and TP were both residents or inpatients of a
program licensed by the NYS Office of Alcoholism and Substance Abuse Services (OASAS), and
the Subject was an employee of the facility not married to either Service Recipient. Therefore,
pursuant to PL§ 130.05(3)(iii) it would have been legally impossible for either Service Recipient
to have given her consent to the alleged conduct complained of.
Specifically, the evidence establishes that the Subject was an employee of the facility and
therefore was a custodian, as defined by SSL § 488(2).

The preponderance of the evidence

presented at the hearing leaves little doubt that Service Recipient RP was likely the victim of sexual
abuse. She was consistent in her written and verbal statements beginning in February, 2014,
ending with her interview on July 23, 2015 conducted by Investigator Mazzone. (Justice Center
Exhibits 10, 12, 13, 15)

She described in sufficient detail what had happened to her - she was

spoken to in inappropriate sexual terms with respect to taking a shower and requesting a razor, and
the abuser had placed his hand on her buttocks while escorting her back to her room on several
occasions. She told the police on July 14, 2015 (Justice Center Exhibit 15) that her abuser was six
feet six inches tall and weighed 220 lbs. However, when Investigator Mazzone asked her to
describe the individual who had abused her, she described a man six feet six inches to six feet eight
inches tall, weighing at least 290-300 lbs. At first glance, it would seem that the discrepancy is
very significant and casts doubt upon the actual identity of the actor being the Subject.
Nevertheless, upon review of all the facts and circumstances in this record, including the fact that
the police investigator apparently found a six-inch discrepancy in height not material (Justice
Center Exhibit 15), and the corroborating information provided by a fifteen-month series of

A-28
Gerard Lynch

13

communications by staff and the Service Recipients (Justice Center Exhibits 12 through 28), it is
concluded that both Service Recipient RP and Service Recipient TP were clear as to which staff
member they were complaining about, and that individual is the Subject.
Although the Subject protested that both the timeline (particularly February 24, 2014) and
the identification of the Subject were fundamentally flawed, there was no convincing evidence
offered at the hearing which support those arguments to a preponderance. Service Recipient RP's
statements are credited evidence.
The Subject's conduct meets the elements of Penal Law § 130.52, forcible touching; he
acted with intent in placing his hand on the Service Recipient's buttocks. His actions were forcible
in that she neither consented to nor asked him to touch her. The Subject had no legitimate purpose
for doing so, and he did it for his own sexual gratification and/or to degrade the Service Recipient.
Accordingly, it is concluded that the Subject did commit sexual abuse of Service Recipient
RP as alleged.
Allegation 2 - Neglect
In order to prove neglect, the Justice Center must prove that the Subject, while a custodian,
breached a duty of care owed to the Service Recipients and that breach caused, or was likely to
cause, physical injury or serious or protracted impairment of the physical, mental or emotional
condition of the Service Recipient.
The Subject at all times owed a duty of care to Service Recipient RP, including abstaining
from any conduct which would or could cause a patient's recovery to be negatively impacted,
particularly considering her mental and emotional status as a service recipient in a detox/rehab
unit. Clearly, unwanted and unconsented-to sexual banter and touching of intimate body areas,
including the touching of her buttocks, is included in the behavior that must be avoided at all costs

A-29
Gerard Lynch

14

due to the risk of mental and/or emotional harm to the Service Recipient. Thus, the Subject's
conduct represents a breach of the duty owed to the Service Recipient by the Subject. The mental
and emotional impairment suffered by Service Recipient RP is evidenced by the continued state
of upset she demonstrated over many months after having interacted with the Subject. It is thus
concluded that the Subject committed neglect against Service Recipient RP.
Accordingly, it is determined that the Justice Center has met its burden of proving by a
preponderance of the evidence that the Subject committed sexual abuse and neglect against Service
Recipient RP, as alleged in Case 1, substantiated report #551036959. The report will not be
amended or sealed.
VPCR Report# 551037826 ("Case 2")
Allegation 1 - Sexual Abuse
The Justice Center has established by a preponderance of the evidence that the Subject
committed sexual abuse against Service Recipient TP as set forth in "Allegation 1" of the
substantiated report.
Service Recipient TP emerged as a witness and victim during the investigation of Case #1
herein. The evidence produced at the hearing discussed in that case above also proved and/or
corroborated that during the period January 28, 2014 through February 3, 2014, while Service
Recipient TP was a resident of the facility, on one or more occasions the Subject subjected the
Service Recipient to unwanted sexual banter by placing his arm around her and saying "If you
have any trouble sleeping, come see me, baby." (Justice Center Exhibit 14) and forcible sexual
touching of her buttocks (described by the Service Recipient TP as "His hand slid down way past
my waistband". (Justice Center Exhibit 28, interview of Service Recipient TP). Service Recipient
TP complained and gave a written statement to Staff GW, dated February 24, 2014, which was
shortly before she was discharged. She further gave consistent statements during the Justice Center

A-30
15

Gerard Lynch

investigation which began in July, 2015. Her statements are credited evidence.
Again, the Subject's conduct meets the elements of Penal Law§ 130.52, forcible touching;
he acted with intent in placing his hand on the Service Recipient's buttocks. His actions were
forcible in that she neither consented to nor asked him to touch her. The Subject had no legitimate
purpose for doing so, and he did it for his own sexual gratification and/or to degrade the Service
Recipient.
Accordingly, it is concluded that the Subject committed sexual abuse against Service
Recipient TP as alleged.
Allegation 2 - Neglect
As noted above in Case 1, the Subject at all times owed a duty of care to Service Recipient
TP, including abstaining from any conduct which would or could cause her recovery to be
negatively impacted, particularly considering her mental and emotional status as a service recipient
in a detox/rehab unit.

Clearly, unwanted and unconsented-to sexual banter and touching of

intimate or private areas, including the touching of her buttocks, is included in the behavior that
must be avoided at all costs due to the risk of mental and/or emotional harm to the Service
Recipient. Such conduct represents a breach of the duty owed by the Subject. Service Recipient
TP described her loud and instantaneous reaction to the Subject's conduct, an indicator that she
was likely to sustain such harm. (Justice Center Exhibit 28)

Therefore, it is concluded that the

Subject breached his duty and thereby committed neglect against Service Recipient TP.
Accordingly, it is determined that the Justice Center has met its burden of proving by a
preponderance of the evidence that the Subject committed sexual abuse and neglect against Service
Recipient TP as alleged in Case 2, substantiated report #55103 7826. The substantiated report will
not be amended or sealed.

A-31
16

Gerard Lynch

Although the reports will remain substantiated, the next question to be decided is whether
each substantiated report constitutes the category of abuse or neglect set forth in the substantiated
report. Based upon the totality of the circumstances, the evidence presented and the witnesses'
statements, it is determined that the two substantiated reports as to sexual abuse are each properly
categorized as Category 1 conduct.
Similarly, based upon the totality of the evidence, the two substantiated reports as to
neglect are each properly categorized as Category 2 conduct; it has been shown that the Subject's
conduct created the likelihood or actuality of serious impairment of the mental and emotional
condition of both Service Recipient RP and Service Recipient TP.
Reports that result in a Category 1 finding shall cause the Subject's name to be
permanently placed on the staff exclusion list and the Vulnerable Persons' Central Register
(VPCR) report to be permanently retained in accordance with SSL§ 495. Thus, the record of
this report for Sexual Abuse shall be retained by the VPCR, and the Subject's name will be
placed permanently on the staff exclusion list, pursuant to SSL§ 495(5).
Category 2 conduct shall be elevated to Category 1 conduct when such conduct occurs
within three years of a previous finding that such custodian engaged in Category 2 conduct.
Reports that result in a Category 2 finding not elevated to a Category 1 finding shall be sealed
after five years.

DECISION:

The request of Gerard Lynch that the substantiated reports dated April 18,
2016, (VPCR Master Case# 551036959 and 551037826) be amended and
sealed is denied. The Subject has been shown by a preponderance of the
evidence to have committed sexual abuse and neglect.

A-32
17

Gerard Lynch

The substantiated reports are properly categorized as Category 1 sexual
abuse and Category 2 neglect.

This decision is recommended by Louis P. Renzi, Administrative Hearings
Unit.

DATED:

May 15, 2018
Schenectady, New York

- ~¥
LouisP. Reo~

A-33
•.
STATE OF NEW YORK
JUSTICE CENTER FOR THE PROTECTION OF
PEOPLE WITH SPECIAL NEEDS
EXHIBIT LIST
In the Matter of the Appeal of

Master Case # 551036959
551037826
Adj. Case# S2 l052865
521050899

GERARD LYNCH
Pursuant to § 494 of the Social Services Law

AU: Louis P. Renzi
Date: 1/17-18/2018
Poughkeepsie, NY

PARTY Exhlhlt

DESCRIPTION

PAGES

ACCEPTED

2

Yes

Agency

I

Report of Substantiated Finding
551036959

Agency

2

Request for Amendment 551036959

5

Yes

Agency

3

AAU Determination Letter 551036959/
521052865

2

Yes

Agency

4

QPO 521052865

2

Yes

Agency

5

Report of Substantiated Finding
551037826

2

Yes

Agency

6

Request for Amendment 551037826

5

Yes

Agency

7

AAU Determination Letter 551037826/
521050899

2

Yes

Agency

8

QPO 521050899

2

Yes

Agency

9

Hearing Notice

2

Yes

Agency

10

JC Case Summary Report 551036959

13

Yes

Agency

11

JC Case Summary Report 551037826

10

Yes

Agency

12

2

Yes

Agency

13

4

Yes

Agency

14

2

Yes

Agency

15

8

Yes

Agency

16

Report from Susan Tobin, Counselor

1

Yes

Agency

17

Patient Information Notes from July 2015

2

Yes

Agency

18

Email from Richard Santiago, dated
7/14/2015

1

Yes

Handwritten Letter from Service Recipient
R.P., undated
Handwritten Letter from SR R.P., dated
7/8/15
Handwritten Letter from Service Recipient
T.P., dated 2/24/14
Town of Poughkeepsie Police Department
documents

Witness

A-34
Lynch, Gerard

PARTY

Exhibit

DESCRIPTION

PAGES

ACCEPTED

Agency

19

Email from Carole Rumble, dated 7/3/2014

l

Yes

Agency

20

3

Yes

Agency

21

2

Yes

Agency

22

Hierarchy Chart

1

Yes

Agency

23

Exhibit Withdrawn by Justice Center

n/a

No

Agency

24

24

Yes

Agency

25

2

Yes

Agency

26

37

Yes

Agency

27

58

Yes

Agency

28

n/a

Yes

Subject

A

Time Detail for Robin Granata

2

Yes

Subject

B

Time Detail for Gerard Lynch

2

Yes

Subject

C

Diagram of Detox/Rehab Unit created by
Subject

l

Yes

Subject

D

Subject's B.S. Diploma - Marist

1

Yes

Subject

E

Subject's MSW Diploma- Fordham

1

Yes

Subject

F

Copy of Subject's NYS Driver License

1

Yes

Subject

G

List of African-American male staff

5

Yes

Email Correspondence re: Patient
Complaint, dated 7/3/2014
St. Francis Hospital Customer Service
Issue, dated 9/23/12

Clinical Documentation for Service
Recipient T.P.
JC Code of Conduct and OMH Mandated
Reporter Documentation for Gerard Lynch
Employment Records for Gerard Lynch
Clinical Documentation for Service
Recipient R.P.
CD containing the following audio files:
Interview-Carole Rumble
l.
Interview-George Weldon
2.
Interview-Gerard Lynch
3.
Interview-Margaret Greenly
4.
Interview-Nancy Magliocca
5.
Interview-Service Recipient R.P.
6.
Interview-Robin Granata
7.
Interview-Service Recipient T.P.
8.

Witness

A-35

Appendix C

A-36

State of New York
Supreme Court, Appellate Division
Third Judicial Department
Decided and Entered: January 7, 2021
________________________________
In the Matter of GERARD M.
LYNCH,
Petitioner,
v
NYS JUSTICE CENTER FOR THE
PROTECTION OF PEOPLE WITH
SPECIAL NEEDS,
Respondent.
________________________________
Calendar Date:
Before:

530536

MEMORANDUM AND JUDGMENT

November 23, 2020

Garry, P.J., Egan Jr., Mulvey and Colangelo, JJ.
__________

Michael D. Diederich Jr., Stony Point, for petitioner.
Letitia James, Attorney General, Albany (Beezly J. Kiernan
of counsel), for respondent.
__________
Egan Jr., J.
Combined proceeding pursuant to CPLR article 78 and action
for declaratory judgment (transferred to this Court by order of
the Supreme Court, entered in Albany County) to, among other
things, review a determination of respondent denying
petitioner's request to amend and seal a report of sexual abuse
and neglect.
Petitioner worked as a chemical dependency counselor for a
state-licensed substance abuse treatment program. After a
report was made to the Vulnerable Persons' Central Register that

A-37

-2-

530536

petitioner had groped and sexually harassed one of the patients
on the program's inpatient unit in 2014 and that several
mandated reporters had failed to report that conduct earlier
(see Social Services Law §§ 488, 491), respondent commenced an
investigation in 2015. In the course of that investigation,
which included a review of program records, as well as
interviews with petitioner, past and current program employees
and the patient involved in the reported incidents, proof was
uncovered regarding petitioner's sexual harassment and abuse of
a second patient. The result of the investigation, as is
relevant here, was that the allegations regarding petitioner's
sexual abuse and neglect of the two service recipients were
deemed substantiated.
Petitioner was notified of those findings and advised
that, because sexual abuse was "[c]ategory one" conduct, he
would be permanently placed on the Vulnerable Persons' Central
Register's staff exclusion list and barred from caring for any
vulnerable persons (Social Services Law § 493 [5] [a]; see
Social Services Law §§ 493 [4] [a]; 495 [3]). His request that
the reports be amended to unsubstantiated was rejected, and the
matter proceeded to an administrative hearing. Following the
hearing, an Administrative Law Judge (hereinafter ALJ) issued a
recommended decision finding that a preponderance of the
evidence established that petitioner had committed the alleged
conduct. Respondent adopted the recommended decision in its
entirety, prompting petitioner to commence this combined CPLR
article 78 proceeding and declaratory judgment action. Supreme
Court transferred the matter to this Court (see CPLR 7804 [g]),
and we confirm.
Initially, although petitioner styled some of his requests
as ones for declaratory relief, a review of the
petition/complaint reveals that they are challenges to the
procedures underlying respondent's determination that are
"properly the subject of a CPLR article 78 proceeding" (DolceRichard v New York City Health & Hosps. Corp., 149 AD3d 903, 904
[2017]; see CPLR 7803 [3]; Matter of Shore Winds, LLC v Zucker,
179 AD3d 1208, 1211 [2020], lv denied 35 NY3d 914 [2020]; Matter
of Adirondack Med. Ctr.-Uihlein v Daines, 119 AD3d 1175, 1176

A-38

-3-

530536

[2014]). Petitioner accordingly had an adequate remedy in the
form of a CPLR article 78 proceeding and is not entitled to any
declaratory relief (see Greystone Mgt. Corp. v Conciliation &
Appeals Bd. of City of N.Y., 62 NY2d 763, 765 [1984]; Matter of
Shore Winds, LLC v Zucker, 179 AD3d at 1211).1
Turning to the merits, "[a]n administrative determination
following an evidentiary hearing required by law must be
supported by substantial evidence" and, if that evidence is
present in the record, this Court cannot substitute its judgment
for that of respondent (Matter of Taylor v Justice Ctr. for the
Protection of People with Special Needs, 182 AD3d 815, 817
[2020]; see CPLR 7803 [4]; Matter of Perez v New York State
Justice Ctr. for the Protection of People with Special Needs,
170 AD3d 1290, 1291 [2019], lv denied 34 NY3d 903 [2019]).
Respondent here presented the testimony of its investigator,
through which it placed into evidence exhibits such as
petitioner's employment records documenting prior issues with
his conduct, letters from the two service recipients complaining
of his behavior toward them, and recordings of interviews with
the two service recipients and several program employees. In
her written and oral statements, the first service recipient
described how petitioner had, among other things, groped her
buttocks and made lewd comments to her while she was a patient
on the unit. The second service recipient, in turn, made
statements in which she corroborated some of the first service
recipient's account and described how petitioner had also made
sexually charged comments to her and tried to rub her buttocks.
Contrary to petitioner's contention, the hearsay accounts of the
two service recipients were admissible and, "if sufficiently
relevant and probative," could "constitute substantial evidence
even if contradicted by live testimony on credibility grounds"
(Matter of Haug v State Univ. of N.Y. at Potsdam, 32 NY3d 1044,
1046 [2018]; accord Matter of Perez v New York State Justice
Ctr. for Protection of People with Special Needs, 170 AD3d at
1

Given our holding, as petitioner's claims only pertain
to a CPLR article 78 proceeding, Supreme Court appropriately
transferred the entire matter to this Court (see CPLR 7804 [g];
compare Matter of Paladino v Board of Educ. for the City of
Buffalo, Pub. Sch. Dist., 183 AD3d 1043, 1052 [2020]).

A-39

-4-

530536

1291; Matter of Watson v New York State Justice Ctr. for the
Protection of People with Special Needs, 152 AD3d 1025, 1027
[2017]).
Petitioner did present proof that challenged those
accounts and called the adequacy of respondent's investigation
into question, including his own testimony that he had done
nothing wrong and the testimony of other employees on the unit
that they were unaware of his alleged misbehavior.
Nevertheless, that proof only raised a credibility issue that
respondent was free to, and did, resolve against petitioner (see
Matter of Roberts v New York State Justice Ctr. for the
Protection of People with Special Needs, 152 AD3d 1021, 1024
[2017]). In view of the similar and partially corroborating
hearsay accounts of the service recipients, their prompt
complaints about petitioner's conduct, and the proof reflecting
that petitioner had previously engaged in inappropriate, if not
overtly sexual, behavior toward both patients and staff, we are
satisfied that "the hearsay evidence in the record was
sufficiently reliable to provide substantial evidence to support
[respondent]'s determination" (Matter of Watson v New York State
Justice Ctr. for the Protection of People with Special Needs,
152 AD3d at 1027; see Matter of Perez v New York State Justice
Ctr. for Protection of People with Special Needs, 170 AD3d at
1291; Matter of Roberts v New York State Justice Ctr. for the
Protection of People with Special Needs, 152 AD3d at 1024-1025).
Finally, petitioner argued at the administrative level
that he had not received adequate notice of the charges against
him as a matter of due process, then objected to the testimony
of respondent's investigator regarding his conversation with one
of the service recipients on hearsay grounds. However, he did
not attack the conduct of the investigator or subsequent
administrative hearing on due process grounds, nor did he make
any effort at the hearing to either call the service recipients
to testify or claim the right to cross-examine them. Thus,
having failed to raise those issues at a time when they could
have been addressed, his present attempts to do so are
unpreserved for our review (see Matter of Khan v New York State
Dept. of Health, 96 NY2d 879, 880 [2001]; Matter of Haug v State

A-40

-5-

530536

Univ. of N.Y. at Potsdam, 166 AD3d 1404, 1405 [2018]; Matter of
Currie v New York State Bd. of Parole, 298 AD2d 805, 806
[2002]). To the extent not specifically addressed, petitioner's
remaining contentions have been reviewed and found to be without
merit.
Garry, P.J., Mulvey and Colangelo, JJ., concur.

ADJUDGED that the determination is confirmed, without
costs, and petition dismissed.

ENTER:

Robert D. Mayberger
Clerk of the Court

A-41

Appendix D

A-42
STATE OF NEW YORK
JUSTICE CENTER FOR THE PROTECTION OF PEOPLE
WITH SPECIAL NEEDS

FINAL
DETERMINATION
AND ORDER
AFTER HEARING

In the Matter of the Appeal of
Rotimi Salu
Pursuant to § 494 of the Social Services Law

Adjud. Case #:
521064797

The attached Recommended Decision After Hearing (Recommended Decision) is
incorporated in its entirety including but not limited to the Findings of Fact, Conclusions of Law
and Decision section.
ORDERED: The attached and incorporated Recommended Decision is hereby adopted in
its entirety.
ORDERED: The Vulnerable Persons' Central Register shall take action in conformity
with the attached Recommended Decision, specifically the Decision section.
This decision is ordered by Elizabeth M. Devane, ALJ, Administrative Hearings Unit, who
has been designated by the Executive Director to make such decisions.

Dated:

September 24, 2018
Schenectady, New York

Elizabet M.. Devane
Adminisirative•·taw Judge
CC. Vulnerable Persons' Central Register
Administrative Appeals Unit
Rotimi Salu, Subject
Michael Diederich, Jr., Esq.

A-43
STATE OF NEW YORK
JUSTICE CENTER FOR THE PROTECTION OF PEOPLE
WITH SPECIAL NEEDS

In the Matter of the Appeal of

Rotimi Salu
Pursuant to § 494 of the Social Services Law

RECOMMENDED
DECISION
AFTER
HEARING
Adjud. Case #
521064797

Before:

Mary B. Rocco
Administrative Law Judge

Held at:

New York State Justice Center for the Protection
of People with Special Needs
Eleanor Roosevelt State Office Building
4 Burnett Blvd., 2nd Floor
Poughkeepsie, New York 12601
August 23, 2018
On:

Parties:

New York State Justice Center for the Protection
of People with Special Needs
161 Delaware A venue
Delmar, New York 12054-1310
By:
Alliah Rozan, Esq.

Rotimi Salu, Subject
2 Alexander Avenue
Spring Valley, New York 10977-2340
By:
Michael Diederich, Jr., Esq.
Diederich Law Office
361Route210
Stony Point, New York 10980

A-44
2

Rotimi Salu

JURISDICTION

The New YorkState Vulnerable Persons' Central Register (the VPCR) maintains a report
substantiating Rotimi Salu (the Subject) for neglect. The Subject requested that the VPCR amend
the report to reflect that the Subject is not a subject of the substantiated report. The VPCR did not
do so, and a hearing was then scheduled in accordance with the requirements of Social Services
Law (SSL)§ 494 and Part 700of14 NYCRR.
FINDINGS OF FACT
An opportunity to be heard having. been afforded the parties and evidence having been

considered, it is hereby found:
1.

The VPCR contains a "substantiated" report dated March 28, 2017 (VPCR Master

Case # 551049808) of neglect by the Subject of a Service Recipient.
2.

The Justice Center substantiated the report against the Subject. The Justice Center

concluded that:
Allegation 2 1
It was alleged that on May 2, 2016, at the Westchester Medical Center, located at

100 Woods Road, Valhalla, New York, while a custodian, you committed neglect
when you failed to provide proper supervision to a service recipient.
This allegation has been SUBSTANTIATED as Category 3 neglect pursuant to
Social Services Law§ 493(4)(c).
3.

An Administrative Review was conducted and as a result the substantiated report

was retained.
4.

The in-patient adolescent psychiatric unit B 1 at the facility, Westchester Medical

Center, located at 100 Woods Road, Valhalla, New York, provides inpatient psychiatric treatment
to adolescents with varying psychiatric diagnoses, and as such, is licensed by the New York State

1

Allegation 1 was unsubstantiated.

A-45
3

Rotimi Salu

Office of Mental Health (OMH), which is an agency that is subject to the jurisdiction of the Justice
Center. (Justice Center Exhibit 6)
5.

At the time of the alleged neglect, the Subject had been employed by the facility as

a Patient Care Technician (PCT) for approximately 3 years and worked a regular 7:00 a.m. to 7:30
p.m. shift four days a week. The Subject's duties as a PCT included the care, support and safety
of the service recipients. (Hearing testimony of the Subject) The Subject was a custodian as that
term is defined in Social Services Law§ 488(2).
6.

At the time of the alleged neglect, the Service Recipient was a sixteen-year old male

with relevant diagnoses of unspecified psychotic disorder, unspecified anxiety disorder, major
depressive disorder with a history of self-injurious behavior and suicidal ideations. At the time of
the alleged neglect, the Subject was assigned 1: 1 constant observation of the Service Recipient due
to the risk of self-mutilation and verbalized suicidal ideation. (Justice Center Exhibits 8, 9 and 10)
7.

Westchester Medical Center policy regarding constant observation provided for

continual oversight to ensure the safety and security of the facility's vulnerable service recipients.
The facility policy dictated that staff assigned to constant observation were required to maintain
an "eyes on at all times" unobstructed view of the assigned service recipient. Additionally, the
policy prohibited a staff member from relinquishing a constant observation assignment unless
relieved by another staff member. (Justice Center Exhibit 11)
8.

At approximately 7:30 p.m. on the date of the alleged neglect, approaching the

end of his shift, the Subject was walking down the hallway towards the nurse's station with the
Service Recipient following a few feetbehind him. As the Subject passed Service Recipient T's
bedroom, Service Recipient T requested the Subject enter his room for a discussion. The Subject
reluctantly stepped into the room in response to Service Recipient T's pleading, wherein a physical

A-46
Rotimi Salu

4

altercation ensued.

The Service Recipient remained alone in the hallway until other staff

responded to the commotion coming from Service Recipient T's bedroom.

(Justice Center

Exhibits 6, 23, 24 and 30; Hearing testimony of the Subject)
9.

The Westchester County Police Department investigated an allegation of assault

regarding the altercation inside Service Recipient T's room, which resulted in no criminal charges
being pursued; however, the instant neglect allegation followed. (Justice Center Exhibit 31)
ISSUES

•

Whether the Subject has been shown by a preponderance of the evidence to have

committed the act or acts giving rise to the substantiated report.
•

Whether the substantiated allegations constitute abuse and/or neglect.

•

Pursuant to Social Services Law § 493(4), the category of abuse and/or neglect that

such act or acts constitute.
APPLICABLE LAW

The Justice Center is responsible for investigating allegations of abuse and neglect in a
facility or provider agency. (SSL§ 492(3)(c) and 493(1) and (3)) Pursuant to SSL§ 493(3), the
Justice Center determined that the initial report of neglect presently under review was
substantiated. A "substantiated report" means a report " ... wherein a determination has been made
as a result of an investigation that there is a preponderance. of the evidence that the alleged act or
acts of abuse or neglect occurred ... " (Title. 14 NYCRR 700.3(t))
The neglect of a person in a facility or provider agency is defined by SSL§ 488(1)(h) as
follows:
(h)
"Neglect," which shall mean any action, inaction or lack of attention that
breaches a custodian's duty and that results in or is likely to result in physical
injury or serious or protracted impairment of the physical, mental or emotional
condition of a service recipient. Neglect shall include, but is not limited to: (i)

A-47
Rotimi Salu

5

failure to provide proper supervision, including a lack of proper supervision that
results in conduct between persons receiving services that would constitute abuse
as described in paragraphs (a) through (g) of this subdivision if committed by a
custodian; (ii) failure to provide adequate food, clothing, shelter, medical, dental,
optometric or surgical care, consistent with the rules or regulations promulgated
by the state agency operating, certifying or supervising the facility or provider
agency, provided that the facility or provider agency has reasonable access to the
provision of such services and that necessary consents to any such medical,
dental, optometric or surgical treatment have been sought and obtained from the
appropriate individuals; or (iii) failure to provide access to educational
instruction, by a custodian with a duty to ensure that an individual receives access
to such instruction in accordance with the provisions of part one of article sixtyfive of the education law and/or the individual's individualized education
program.
Substantiated reports of abuse and/or neglect shall be categorized into categories pursuant
to SSL§ 493(4), including Category 3, which is defined as follows:
(c)
Category three is abuse or neglect by custodians that is not otherwise
described in categories one and two. Reports that result in a category three finding
shall be sealed after five years.
The Justice Center has the burden of proving at a hearing by a preponderance of the
evidence that the Subject committed the act of neglect alleged in the substantiated report that is
the subject of the proceeding and that such act constitutes the category of neglect as set forth in
the substantiated report. (Title 14 NYCRR § 700.lO(d))
If the Justice Center proves the alleged neglect, the report will not be amended and sealed.

Pursuant to SSL § 493(4) and Title 14 NYCRR 700.10(d), it must then be determined whether the
act of neglect cited in the substantiated report constitutes the category of neglect as set forth in the
substantiated report.
If the Justice Center did not prove the neglect by a preponderance of the evidence, the

substantiated report must be amended and· sealed.
DISCUSSION
The Justice Center has established by a preponderance of the evidence that the Subject

A-48
Rotimi Salu

6

committed an act, described as "Allegation 2" in the substantiated report.
In order to sustain an allegation of neglect, the Justice Center must prove that the Subject
was a custodian who owed a duty to the.Service Recipient, that he breached that duty and that his
breach either resulted in or was likely to. result in physical injury or serious or protracted
impairment of the physical, mental or emotional condition of the Service Recipient. (SSL §
488(l)(h))
In support of its substantiated findings, the Justice Center presented a number of documents
obtained during the investigation. (Justice Center Exhibits 1-31) The investigation underlying the
substantiated report was conducted by Justice Center Investigator William McKay, who was the
only witness who testified at the hearing on behalf of the Justice Center.
The Subject testified in his own behalf and provided no other evidence.
On the day of the alleged neglect, the Subject was employed by the facility as a PCT and
was therefore acting as a custodian as that term is defined in Social Services Law§ 488(2).
The facts are not in dispute. The record established, and the Subject admitted in his police
interview and in his testimony, that while assigned 1: 1 constant observation of the Service
Recipient, the Subject momentarily left the Service Recipient unsupervised in the hallway to
address Service Recipient T. The Subject testified that, as he walked down the unit hallway with
the Service Recipient in tow, he was briefly diverted, responding to Service Recipient T's request
to enter his room to converse. (Justice Center Exhibits 6, 7, 13, 17, 23, 24 and 30; Hearing
testimony of the Subject)
Counsel for the Subject argued that there was no evidence from "any medical authority" to
prove an allegation of neglect. Counsel for the Subject argued that the Subject was in the presence
and proximity of the Service Recipient at all times and did not expect to get assaulted by Service

A-49
7

Rotimi Salu

Recipient T. Counsel for the Subject asserted that the Subject was lured into Service Recipient
T's bedroom where he was violently attacked. Counsel for the Subject argued that the Subject did
not abandon the Service Recipient but rather attended to his other duties as a PCT by responding
to Service Recipient T's request to talk. Counsel for the Subject further argued that the facility
policy regarding levels of observation was merely guidance and that it would have been ridiculous
to strictly construe the terms in practice. Counsel for the Subject insisted that 1: 1 observation was
implausible here because once the Subject was assaulted by Service Recipient T, the Subject's
duty to maintain eyes on visual supervision of the Service Recipient was superseded by his need
to defend himself. Counsel's arguments were not convincing, as each conspicuously overlooked
the uncontroverted facts in this matter as well as the fundamental elements of neglect as defined
by SSL§ 488(1)(h).
The principal objective of the facility's observation policy is to provide the necessary level
of supervision required by the service recipient's condition with the safety and well-being of the
service recipient being paramount. The facility policy is precise in its definition of constant
observation as maintaining an unobstructed, eyes on at all times visual observation of the service
recipient.

Additionally, the policy unambiguously dictates that a staff member assigned to

constant observation should not attend to anything other than their assigned service recipient at all
times. (Justice Center Exhibit 11)
The evidence clearly established that the Service Recipient required 1: 1 constant
observation at all times because of his proclivity to self-mutilate, as well as his history of suicidal
ideation. The Service Recipient's Comprehensive Treatment Plan specifically addressed Q_is
concerning behaviors by requiring staff to maintain constant visual supervision for his welfare.
(Justice Center Exhibit 10) Additionally, Inpatient Progress Notes and the Discharge Summary

A-50
Rotimi Salu

8

similarly emphasized the nature of the Service Recipient's dangerous behaviors and the
requirement for constant visual supervision as a proactive safety measure. (Justice Center Exhibits
8 and 9) Furthermore, the Subject testified that he was familiar with the Service Recipient's history
of self-injurious behavior and suicidal ideation, and acknowledged the need for and understanding
of the Service Recipient's required supervision level. (Hearing testimony of the Subject)
The Subject testified that, as a PCT, he owed a duty to all of the service recipients on the
unit and that he was attempting to assist Service Recipient T by engaging in a conversation initiated
by him. The Subject explained that the unit's service recipients were vulnerable adolescents and,
as a PCT, his duty was to support each of them, regardless if he was assigned 1: 1 with another
service recipient. The Subject testified that Service Recipient Thad experienced some difficulties
earlier that day and the Subject believed that he was aiding in the therapeutic support of Service
Recipient T when he responded to his request to talk.

(Hearing testimony of the Subject)

Conversely, the Subject admitted during his testimony that he was warned earlier in the day that
Service Recipient Twas exhibiting aggressive behavior targeted towards the Subject and that the
Subject was instructed by a supervisor to avoid interaction with Service Recipient T. (Justice
Center Exhibits 6, 20, 21and30; Hearing testimony of the Subject)
Although the Subject's testimony regarding his dedication to and concern for each
individual service recipient was credible and commendable, it did not abrogate the duty he owed
to the Service Recipient to maintain constant, unobstructed visual supervision, which he
admittedly did not do. Not only did the Subject breach his duty by failing to maintain eyes on
supervision of the Service Recipient when he walked down the hallway as the Service Recipient
followed behind him, (Justice Center Exhibits 17 and 28 at page 073; Hearing testimony of the
Subject) but the Subject further breached his duty when he left the Service Recipient in the hallway

A-51
Rotimi Salu

9

unsupervised upon entering Service Recipient T's room. (Justice Center Exhibit 28 at pages 075
- 077; Hearing testimony of the Subject) Moreover, the Subject acknowledged during testimony,
that once inside Service Recipient T's room, his focus was exclusively on Service Recipient T not
the Service Recipient. (Hearing testimony of the Subject)
It is not necessary for the Justice Center to prove that the Subject's conduct caused actual

physical injury or serious or protracted impairment of the physical, mental or emotional condition
of the Service Recipients, if a preponderance of the evidence supports a conclusion that such injury
or impairment was likely. (SSL§ 488(l)(h)) The fact that the Service Recipient was placed on a
1: 1 supervision level for self-injurious behavior and suicidal ideations emphatically underscores
the significant likelihood of potential harm or death to the Service Recipient if left unsupervised.
Accordingly, it is determined that the Justice Center has met its burden of proving by a
preponderance of the evidence that the Subject committed the neglect alleged. The substantiated
report will not be amended or sealed.
Although the report will remain substantiated, the next question to be decided is whether
the substantiated report constitutes the category of neglect set forth in the substantiated report.
Based upon the totality of the circumstances, the evidence presented and the witnesses' statements,
it is determined that the substantiated report is properly categorized as a Category 3 act. A
substantiated Category 3 finding of neglect will not result in the Subject's name being placed on
the VPCR Staff Exclusion List and the fact that the Subject has a Substantiated Category 3 report
will not be disclosed to entities authorized to make inquiry to the VPCR. However, the report
remains subject to disclosure pursuant to NY SSL§ 496(2). This report will be sealed after fiveyears.

A-52
Rotimi Salu

DECISION:

10

The request of Rotimi Salu that the substantiated report dated March 28,
2017 (VPCR Master Case # 551049808) be amended and sealed is denied.
The Subject has been shown by a preponderance of the evidence to have
committed neglect.

The substantiated report is properly categorized as a Category 3 act.

This decision is recommended by Mary B. Rocco, Administrative Hearings
Unit.

DATED:

September 7, 2018
Plainview, New York

A-53

Appendix E

A-54

State of New York
Supreme Court, Appellate Division
Third Judicial Department
Decided and Entered: January 7, 2021
________________________________
In the Matter of ROTIMI SALU,
Petitioner,
v
NYS JUSTICE CENTER FOR THE
PROTECTION OF PEOPLE WITH
SPECIAL NEEDS,
Respondent.
________________________________
Calendar Date:
Before:

530535

MEMORANDUM AND JUDGMENT

November 23, 2020

Garry, P.J., Egan Jr., Mulvey and Colangelo, JJ.
__________

Michael D. Diederich Jr., Stony Point, for petitioner.
Letitia James, Attorney General, Albany (Beezly J. Kiernan
of counsel), for respondent.
__________
Egan Jr., J.
Combined proceeding pursuant to CPLR article 78 and action
for declaratory judgment (transferred to this Court by order of
the Supreme Court, entered in Albany County) to, among other
things, review a determination of respondent denying
petitioner's request to amend and seal a report of neglect.
Petitioner was employed as a patient care technician in
the adolescent psychiatric department of the Westchester Medical
Center (hereinafter the facility), a facility licensed by the
Office of Mental Health. In May 2015, petitioner was assigned
to supervise G.G., a service recipient who suffered from certain

A-55

-2-

530535

mental health diagnoses and presented a risk of self-mutilation
and verbalized suicidal ideation. As petitioner was walking the
hallway of the facility with G.G., he left G.G. alone in the
hallway and entered the room of T.S., another service recipient,
whereupon a physical altercation ensued between petitioner and
T.S. As a result of this altercation, respondent received a
report alleging that petitioner had (1) physically abused T.S.
and (2) neglected G.G. by failing to provide proper supervision.
Following an investigation,1 in March 2017, respondent issued a
report finding that the allegation of physical abuse against
T.S. was unsubstantiated but determining that petitioner's
conduct with respect to G.G. constituted category three neglect
(see Social Services Law § 493 [4] [c]).2 Petitioner's
subsequent request to amend the report to an unsubstantiated
finding of neglect was denied and the matter was referred for an
administrative hearing. Following the hearing, an
1

The local police also investigated the incident and no
criminal charges were filed.
2

Substantiated reports of abuse or neglect must be
categorized into one or more of four categories. "Category one
conduct is serious physical abuse, sexual abuse or other serious
conduct by custodians" (Social Services Law § 493 [4] [a]).
"Category two is substantiated conduct by custodians that is not
otherwise described in category one, but conduct in which the
custodian seriously endangers the health, safety or welfare of a
service recipient by committing an act of abuse or neglect"
(Social Services Law § 493 [4] [b]). Category three conduct "is
abuse or neglect by custodians that is not otherwise described
in categories one and two"; if such a finding is made, the
report of such "shall be sealed after five years" (Social
Services Law § 493 [4] [c]). Category four conduct involves
"conditions at a facility or provider agency that expose service
recipients to harm or risk of harm where staff culpability is
mitigated by systemic problems such as inadequate management,
staffing, training or supervision" and also includes "instances
in which it has been substantiated that a service recipient has
been abused or neglected, but the perpetrator of such abuse or
neglect cannot be identified" (Social Services Law § 493 [4]
[d]).

A-56

-3-

530535

Administrative Law Judge (hereinafter ALJ) issued a recommended
decision finding that a preponderance of the evidence
established that petitioner had committed category three neglect
against G.G. Respondent adopted the recommended decision in its
entirety. Petitioner thereafter commenced this combined CPLR
article 78 and action for declaratory judgment, which was
subsequently transferred to this Court.
Initially, although petitioner styled certain of his
requests as ones seeking declaratory relief, a review of the
petition/complaint demonstrates that they are challenges to the
procedures underlying respondent's determinations and,
therefore, are "properly the subject of a CPLR article 78
proceeding" (Dolce-Richard v New York City Health & Hosps.
Corp., 149 AD3d 903, 904 [2017]; see CPLR 7803 [3]; Matter of
Shore Winds, LLC v Zucker, 179 AD3d 1208, 1211 [2020], lv denied
35 NY3d 914 [2020]; Matter of Adirondack Med. Ctr.-Uihlein v
Daines, 119 AD3d 1175, 1176 [2014]). Petitioner accordingly has
an adequate remedy in the form of a CPLR article 78 proceeding
and is not entitled to declaratory relief (see Greystone Mgt.
Corp. v Conciliation & Appeals Bd. of City of N.Y., 62 NY2d 763,
765 [1984]; Matter of Shore Winds, LLC v Zucker, 179 AD3d at
1211).3
Turning to the merits, "[a]n administrative determination
following an evidentiary hearing required by law must be
supported by substantial evidence" and, if that evidence is
present in the record, this Court cannot substitute its judgment
for that of respondent (Matter of Taylor v Justice Ctr. for the
Protection of People with Special Needs, 182 AD3d 815, 817
[2020]; see CPLR 7803 [4]; Matter of Perez v New York State
Justice Ctr. for the Protection of People with Special Needs,
170 AD3d 1290, 1291 [2019], lv denied 34 NY3d 903 [2019]).
Here, respondent proffered the testimony of its investigator,
through whom it admitted into evidence 31 exhibits, including,
3

Given our holding, as petitioner's claims only pertain
to a CPLR article 78 proceeding, Supreme Court appropriately
transferred the entire matter to this Court (see CPLR 7804 [g];
compare Matter of Paladino v Board of Educ. for the City of
Buffalo Pub. Sch. Dist., 183 AD3d 1043, 1052 [2020]).

A-57

-4-

530535

among other things, a copy of the facility's "constant
observation" policy, still photographs depicting the incident,
supporting depositions of the subject service recipients and 11
staff members of the facility, and a video of petitioner's
police interrogation.
The hearing evidence established that, on the day in
question, petitioner was assigned to provide one-to-one constant
observation of G.G. Under the facility's constant observation
policy, a patient care technician who is assigned to one-to-one
constant observation of a service recipient is required to have
"eyes on" the service recipient at all times when he or she is
awake or outside of his or her room, meaning that the patient
care technician "must be able to see an unobstructed view of the
[service recipient's] body length, not just a part of [his or
her] body." Petitioner was walking in the hallway of the
facility a few feet in front of G.G. such that he did not have
direct observation of him. As petitioner passed the room of
T.S., he paused, looked into the room and then entered it,
leaving G.G. alone in the hallway and out of his view. The unit
chief of the adolescent inpatient psychiatric unit, a doctor,
indicated in her supporting deposition that she viewed the video
of the incident and observed petitioner leaving his one-to-one
service recipient alone in the hallway "in violation of
protocol."
Contrary to petitioner's contention, administrative
hearings are not bound by the traditional rules of evidence, and
an administrative determination may be based entirely on hearsay
testimony, which "if sufficiently relevant and probative [could]
constitute substantial evidence even if contradicted by live
testimony on credibility grounds" (Matter of Haug v State Univ.
of N.Y. at Potsdam, 32 NY3d 1044, 1046 [2018]; accord Matter of
Perez v New York State Justice Ctr. for Protection of People
with Special Needs, 170 AD3d at 1291; see Matter of Watson v New
York State Justice Ctr. for the Protection of People with
Special Needs, 152 AD3d 1025, 1027 [2017]). Here, although
petitioner testified in his own defense, his account did not
contradict or challenge the account set forth by the
investigator in his report and his testimony at the hearing, and

A-58

-5-

530535

petitioner admitted during his police interview that he
exercised "bad judgment" and violated protocol by leaving G.G.
alone in the hallway. Petitioner also acknowledged that,
inasmuch as G.G. had exhibited self-injurious behavior and
verbalized suicidal ideations, his conduct placed G.G. in
potential danger. Based on the foregoing, we are satisfied that
the investigator's hearsay account of the incident, which was
corroborated by still photographs and numerous supporting
depositions from facility staff, coupled with petitioner's
admissions, provided the requisite substantial evidence to
support respondent's finding that petitioner neglected a service
recipient and that such neglect constituted category three
neglect (see Social Services Law §§ 488 [1] [h]; 493 [4] [c];
Matter of Perez v New York State Justice Ctr. for Protection of
People with Special Needs, 170 AD3d at 1292; Matter of Watson v
New York State Justice Ctr. for the Protection of People with
Special Needs, 152 AD3d at 1027; Matter of Roberts v New York
State Justice Ctr. for the Protection of People with Special
Needs, 152 AD3d 1021, 1024-1025 [2017]).
Finally, although petitioner argued at the administrative
level that he had not received adequate notice of the charges
against him as a matter of due process and objected to the
testimony of respondent's investigator on hearsay grounds, he
did not attack the conduct of the investigator or subsequent
administrative hearing on due process grounds, nor did he make
any effort to subpoena or call the service recipients or any
other facility staff to testify at the hearing or claim the
right to cross-examine them. Thus, having failed to raise these
issues at a time when they could have been addressed, his
present attempts to do so are unpreserved for our review (see
Matter of Khan v New York State Dept. of Health, 96 NY2d 879,
880 [2001]; Matter of Haug v State Univ. of N.Y. at Potsdam, 166
AD3d 1404, 1405 [2018]; Matter of Currie v New York State Bd. of
Parole, 298 AD2d 805, 806 [2002]). To the extent not
specifically addressed, petitioner's remaining contentions have
been reviewed and found to be without merit.
Garry, P.J., Mulvey and Colangelo, JJ., concur.

A-59

-6-

530535

ADJUDGED that the determination is confirmed, without
costs, and petition dismissed.

ENTER:

Robert D. Mayberger
Clerk of the Court

A-60

Appendix F

Case 20-761, Document 114, 11/16/2020, 2975268, Page1 of 1

A-61

UNITED STATES COURT OF APPEALS
FOR THE

SECOND CIRCUIT
_____________________________________________
At a stated term of the United States Court of Appeals for the Second Circuit, held at the
Thurgood Marshall United States Courthouse, 40 Foley Square, in the City of New York, on the
16th day of November, two thousand twenty.
________________________________________
Rotimi Salu, Gerard M. Lynch,
Plaintiffs - Appellants,
v.

ORDER

Denise Miranda, New York State Justice Center, Elizabeth M.
Devane, David Molik, Mary B. Rocco, Louis P. Renzi,
Westchester Medical Center Health Network, Westchester
County Health Care Corporation,

Docket No: 20-761

Defendants - Appellees,
Diamond Healthcare Corporation, Denise Davis,
Defendants.
_______________________________________
Appellants, Rotimi Salu and Gerard M. Lynch, filed a petition for panel rehearing, or, in
the alternative, for rehearing en banc. The panel that determined the appeal has considered the
request for panel rehearing, and the active members of the Court have considered the request for
rehearing en banc.
IT IS HEREBY ORDERED that the petition is denied.
FOR THE COURT:
Catherine O'Hagan Wolfe, Clerk

A-62

Appendix G

Case 7:18-cv-10399-KMK Document 71 Filed 02/04/20 Page 1 of 1

A-63

Case 7:18-cv-10399-KMK Document 72 Filed 02/05/20 Page 1 of 1

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
------------------------------------------------------------X
ROTIMI SALU; GERARD M. LYNCH,
Plaintiffs,
-against-

A-64

ELECTRONICALLY FII . FD
DOC#:
DATE F-IL_E_·D: __::~5[ooo0.

18 CIVIL 10399 (KMK)

JUDGMENT
DENISE MIRANDA, et al.,
Defendants.

-----------------------------------------------------------X
It is hereby ORDERED, ADJUDGED AND DECREED: That for the reasons
stated in the Court's Order dated February 4, 2020, Defendants' Motions To Dismiss and dismisses
all of Plaintiffs' claims with prejudice; accordingly, the case is closed.
Dated: New York, New York
February 5, 2020

RUBY J. KRAJICK
Clerk of Court
BY:

#ma~
Cler
Deputy

